No. 20-1631
In The

Supreme Court of the United States
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
Petitioner,
V.

IMPLICIT, LLC, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF
CERTIORARI
TO THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT

RESPONDENT APPLE INC.’S
RESPONSE IN SUPPORT OF THE
PETITION FOR WRIT OF
CERTIORARI
DEBRA J. MCCOMAS
Counsel of Record
HAYNES AND BOONE, LLP
2323 Victory Ave., Suite 700
Dallas, TX 75219
(214) 651-5375
Debbie.McComas@haynesboone.com

Additional Captions Listed on Inside Cover

ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
PETITIONER
V.

TRANSTEX INC., ET AL.
______________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
PETITIONER
V.

NEW VISION GAMING & DEVELOPMENT, INC., ET AL.
______________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE,
PETITIONER
V.

UNILOC 2017 LLC, ET AL.
______________

i
QUESTION PRESENTED
Whether, for purposes of the Appointments
Clause, U.S. Const. art. II, § 2, cl. 2, administrative
patent judges of the U.S. Patent and Trademark Office
are principal officers who must be appointed by the
President with the Senate’s advice and consent, or
“inferior Officers” whose appointment Congress has
permissibly vested in a department head.

ii
CORPORATE DISCLOSURE STATEMENT
Respondent Apple Inc. has no parent
corporation. To the best of Respondent’s knowledge
and belief, no publicly held corporation owns 10% or
more of Apple Inc.’s stock.

1
INTRODUCTION
Pursuant to Supreme Court Rule 12.6,
Respondent Apple Inc. (“Apple”) files this brief in
support of the government’s petition for a writ of
certiorari. 1 As the petition explains, Apple was the
appellee in one of two consolidated Federal Circuit
appeals that were recently remanded to the Patent
Trial and Appeal Board in light of the Federal Circuit’s
decision in Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320 (2020). See Pet. II; see also App. 13a-14a
(remand order).
This Court has granted certiorari to review
Arthrex and, if it ultimately reverses the Federal
Circuit’s decision, the ruling will almost certainly
require vacatur of the remand order in Apple’s appeal.
Accordingly, Apple respectfully supports the
government’s request to hold the petition until this
Court has issued its judgment in United States v.
Arthrex, Inc., No. 19-1434, and the consolidated cases
(Nos. 19-1452 and 19-1458), and then dispose of this
case as appropriate in light of this Court’s decision in
Arthrex.
STATEMENT
In December 2017, Apple filed a petition for
inter partes review with the Patent Trial and Appeal
Board (“PTAB”) challenging the patentability of
several claims of U.S. Patent No. 7,092,671. Following
briefing and oral argument, the PTAB declared the
challenged claims unpatentable in a well-reasoned
decision. Apple Inc. v. Uniloc Luxembourg, S.A.,
Apple complied with Rule 12.6’s requirement of notice to all
other parties on June 10, 2021, via an email that was sent to all
counsel of record.

1

2
IPR2018-00282, Paper 30 (P.T.A.B. June 4, 2019).
Uniloc 2017 LLC (“Uniloc”) filed a request for
rehearing of the PTAB’s decision on July 1, 2019,
which the PTAB denied on February 19, 2020. Apple
Inc. v. Uniloc 2017 LLC, IPR2018-00282, Paper 32
(P.T.A.B. Feb. 19, 2020).
On April 2, 2020, Uniloc appealed the PTAB’s
unpatentability rulings to the Federal Circuit, which
consolidated the appeal with another appeal from an
inter partes review pertaining to the same patent. See
Uniloc 2017 LLC v. Unified Patents, LLC, No. 20201666 (Fed. Cir.); Uniloc 2017 LLC v. Apple Inc.,
No. 2020-1667 (Fed. Cir.). At 11:10 p.m. on April 5,
2021, the day that Uniloc’s opening merits brief was
due, Uniloc moved to remand the consolidated cases in
light of the Federal Circuit’s ruling in Arthrex because
the PTAB’s rulings had been issued by (in Uniloc’s
view) an unconstitutionally appointed panel of
administrative judges.
Apple and the government (which is an
intervenor in the appeals) both opposed Uniloc’s
eleventh-hour motion, arguing that the motion should
be held until this Court issued its ruling on the merits.
See Apple’s Opp’n to Appellant’s Mot. to Vacate,
Uniloc 2017 LLC v. Unified Patents, LLC, Apple Inc.,
Nos. 2020-1666, 2020-1667 (Fed. Cir. Apr. 29, 2021),
ECF No. 35; Intervenor’s Opp’n to Appellant’s Mot. to
Vacate, Uniloc 2017 LLC (Fed. Cir. Apr. 15, 2021),
ECF No. 33. Over five weeks after Uniloc’s motion was
filed, a Federal Circuit panel granted the motion in a
short order. App. 13a-14a; see also Pet. 7-8.
On May 21, 2021, the government filed the
instant petition for certiorari, which asks this Court to
hold this case pending disposition of Arthrex and then

3
to dispose of the petition as appropriate in light of the
Court’s Arthrex ruling. This Court docketed the
petition the same day, on May 21, 2021.
REASONS FOR GRANTING THE PETITION
Apple adopts Petitioner’s argument section in
full. See Pet. 8-9. For the reasons stated therein, the
petition should be held and disposed of following the
issuance of this Court’s judgment in Arthrex.
CONCLUSION
The petition for a writ of certiorari should be
held pending the Court’s decision in United States v.
Arthrex, Inc., No. 19-1434, and the consolidated cases
(Nos. 19-1452 and 19-1458), and then disposed of as
appropriate in light of the Court’s decision.
Respectfully submitted,
DEBRA J. MCCOMAS
Counsel of Record
HAYNES AND BOONE, LLP
2323 Victory Ave., Suite 700
Dallas, TX 75219
(214) 651-5375
Debbie.McComas@haynesboone.com

June 21, 2021

